Spotlight
Department of Homeland Security

Ofﬁce of Inspector General                                                                             July 2012 OIG-12-99


Why This Matters                Issuance of a Security Clearance
The Department of Homeland
Security’s (DHS) Transportation to a TSA General Manager
Security Administration (TSA)
Transportation Threat Assessment
and Credentialing (TTAC) offices
play an active role in determinations
affecting whether individuals             What We Determined
engaged in or with access to various
aspects of the U.S. transportation        TSA Personnel Security appropriately applied Federal reciprocity and adjudicative guidelines
system pose a threat to                   in conducting its suitability determination and issuing a security clearance to a General
transportation or national security.      Manager at TSA's legacy TTAC office. However, TTAC internal controls were weak on the
                                          hiring and supervision of the General Manager.
Ensuring that TSA follows Federal
guidance during the personnel
security process and that legacy
TTAC offices adhere to standard
internal controls for hiring and
supervision minimizes the risk of an
insider threat to security.




DHS Response
TSA noted internal controls and
changes in human capital practices
that it has introduced for senior level
positions since the General Manager
was hired.




For Further Information:
Contact our Office of Public Affairs at
(202)254-4100, or email us at
DHS-OIG.OfficePublicAffairs@dhs.gov
